SUPREME COURT OF
SEPTEMBER TERM 2020
No.

ATES

\

DIEUSEUL BROWN
Petitioner,
Supreme Court, U.S.
FILED

VS .

SEP I 4 2020

SONJA NICKULAS

OFFICE OF THE CLERK

Respondent

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEAL
FOR THE 7th CIRCUIT

Dieuseul Brown’
Reg no.
2600 N. Brinton Av
Dixon, Illinois
61021

r-

RECEIVED
i

OCT 2 2 2020
)

OFFICE OF THE CLERK
SUPREME COURT, U.S.

r-

QUESTION PRESENTED
Whether the Petitioner's claim is Procedurally Defaulted under the
Independent and Adequate State grounds Doctrine. Whether the lower courts
erred in not finding of favor of Petitioner when the jury did not find the
petitioner guilty of first degree murder, but found him. guilty of second
degree murder. In Illinois, in order to find an individual guilty of second
degree murder, he has to be found guilty of first degree murder first, the
a jury will consider the mitigating factors„
PARTIES
The petitioner is Dieuseul Brown, a Prisoner.:at Dixdn Correctional
Center in Dixon Illinois. The respondent is Sonja Nickulas, the Warden at
Dixon C.C.
TABLE OF CONTENTS
Question Presented

2

Parties

2

Table Of Authories

3

Decision Below

■

4

4

Jurisdiction
Constitutional and Statutory Provisions Involved

4

Statement Of the-Case

... 8

Basis for Federal Jurisdiction
Reasons For Granting Writ........................ .......
A. Importance of the Question Presented

6
8

Conclusion

13

Exhibits

14

State Appellate Court decision....................

A

Order of the United States District Court

B

2
■f

TABLE OF AUTHORIES
Duncan v Hanrv, 513 U.S. 364........................................

8

Smith v Texas, 550 U.S. 297..........................................

8,1

People v Jeffries,............................................................

9

Jackson v Virginia, 443 U.S. 307................................

10

Mullaney v Wilbur, 412 U.S. 684..................................

11

720 TLCS 5/9-l(a)(l), Illinois Criminal Procedure

4

720 ILCS 5/9-2 (2012) Illinois Criminal Procedure

4

North Carolina v Pearce, 395 U.S. 711,....................

12

U.S. v Const. Amends v and XIV....................................

12

Tibbs v Florida, 457 U.S.31.......... ...............................

12
7

U.S. v Powell, 469 U.S. 57.....................................................

.

.T

Ste? — -Sir *.

-

5s*=

3

1 -S':-

mr.'

JT.

DECISIONS BELOW
The decision of the Illinois Third District Appellate Court. Appendix
A. The decision of the Illinois Central District Federal court. See Appendix
B. And the decision of the United States of Appeals for the 7th Circuit is
unreported. It is cited in the table, cite

and a copy is attac-

hed as appendix C.
JURISDICTION
The judgement of the United States Court of appeals for the 7th Circuit
was entered on June 8, 2020, an order denying the Petitioner's Certificate
Of Appealability. A copy is attached as Appendix C. Jurisdiction is conferred
by 28 U.S.C. § 1254(1).
::CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involved Amendment XIV to the United States Constitution,
and the Amendment is eforced by Title 42, Section 1983

the United States

Code.
STATEMENT OF THE CASE
The petitioner was charged with two alternative counts of first degree
murder for the shooting death of Kelsey Coleman
petitioner had committed felony murder

Count I alleged that the

in the Coleman was shot during an

armed robbery, in viblatp^nWf sec tjirbn-9- 1(a)(3) of the CrimrrfaLgGode 72<Djr'Vrv
ILCS 5/9-l(a)(3) (West 2012). Count II alleged that the petitioner had commimurder by shooting Coleman

tted t5he offense of

m ofvdeath or

act created^
caused the—death

h\

greaJ>bo<3i

knowing that
-£,-5*7

violaT:ion of section^.

Criminal Code 9-l(a)(2).
The case proceeded to a jury trial before Honorable Judge Brown. Evidence
adduced at trial indicated that on April 4

2013, Coleman had a handyman,

John McNulty, was there performing some revovation.
4

According to McNulty, the back door crashed opened at midnight and the petit­
ioner came in with a gun. The petitioner held a gun to McNulty's head and
walked McNulty through the house. Coleman met them in the hallway, and
Coleman and the petitioner started wrestling. The fight continued into the
kitchen and McNulty heard gunshots. Coleman walked stiffly from the kitchen
and told McNulty that he has been shot.
The mother of Coleman's children, melodie Richardson, testified that she
heard a loud bang and the petitioner came into her bedroom with a gun pointed
at McNulty's head. The petitioner demanded money, and Richardson called out
for Coleman. McNulty and the petitioner went back down the hallway and
Richardson hid with her daughter in the bedroom closet. While in the police.
She came out of her room and saw Coleman staggering down the hallway. When
the paramedica arrived, Coleman was already dead. Richardson identified the
petitioner from a phot array and McNulty identified the petitioner in a
lineup.
The petitioner testified at trial that he went to Coleman's house to buy
drugs. He knocked on the back door of Coleman's house and Coleman let him in.
Coleman handed drugs to the petitioner, but the two argued over the amount
of drugs that was to be purchased. Coleman started throwing punched at the
petitioner and the petitioner thought that Coleman was trying to kill him.
When the petitioner picked up the :_gun and fired a warning shot, but that
did not stop Coleman. The petitioner testified that he felt that he had no
choice but to shoot Coleman, so he fired the gun into Coleman's back, while
Coleman was on top of the petitioner on the ground. The petitioner then ran
from the house leaving the drugs and money behind.

5

At the jury -instruction conference, the trial court approved instructions
pertaining to self defense and second degree murder. The first degree murder
instruction were modified by agreement to differentiate between Count II,
and Count I.
After deliberation, the jury returned its verdicts. It did not follow
the directions regarding signing only one of the verdict forms relative to
first degree murder. The jury signed two verdict form-si hot guilty :.of first
degree murder and guilty of second degree murder. The jury was not polled
the verdicts were received and entered and the jury was discharged.
The petitioner was sentenced 24 years for second degree murder.
REASONS FOR GRANTING WRIT;
This court should grant leave to review ;this case of first impression
in Illinois, in which an Illinois Circuit Court Judge accepted a verdict
of the guilty of second degree murder, even though the verdict was precluded by
the jury's acquittal of first degree murder, an essential element of the
charge of second degree murder. Although, as noted by the dissenting Justice
this case presents a "quintessential insufficiency of the evidence claim','
the majority determined that the petitioner could not request sufficiency
of the evidence review for the first time on appeal.
This court should grant leave to appeal because the majority's determ­
ination that the petitioner forfeited his claim that he was not proved gui­
lty beyond a reasonable doubt of the offense of second degree murder because
the jury explicitly found he had not committed an essential element of
that charge first degree murder and squarely conflicts with this court's
holding in U.S. v Powell, 469 U.S. 57;

i;

Moreover

the trial court's acceptance of both a not guilty offirst

degtree murder verdict and guilty of second degree murder verdict, after it
had explicitly admonished the jury that it could not even consider second
degree murder if it found the petitioner not guilty of first degree murder
and seriously challenegs the integrity of the process. It should be noted
that the Illinois Supreme Court acknowledges "that when a jury returns incon­
sistent verdicts, the circuit court cannot accept such verdicts, but must
require further deliberations from the jury in order to preserve the inte­
grity of the judicial proceedings. People v Almo, 108 Ill.2d 54; This court
should grant leave because the trial court's acceptance of the jury's Second
degree murder verdict, which was clearly precluded by the not guilty of
first degree murder verdict, which seriously impugns the integrity of
insufficient to invke the second prong of plain error analysis in inconsi­
stent with*this court's present.
Gran ting;., leave to appeal would allow this court to address a matter of
first impression in the State of Illinois. In Powell, this court declared
that a not guilty verdict does not negate a guilty verdict in cases in which
the state alleges multiple claim in multiple counts. This court should
grant leave to appeal to consider whether Powell and other cases by this
Court applies to this instant case, where a first degree murder case in
which the jury's guilty of second degree murder verdict was not inconsistent
with the jury's guilty not of first degree murder verdict, but was rather
precluded by it.

BASIS FOR FEDERAL JURISDICTION
This case raises a question of interpretation pf the Due Process Clause
of the 14th to the U.S. Constitution. The Districtcourt had jurisdiction
conferred by 28 U.S.C. 1331.
REASON FOR GRANTING THE WRIT
A. Importance Of The Question Presented:
Petitioner's Claim Is Not Procedurally Defaulted Under The Indepentent
And Adequate State Ground Doctrine.
In Duncan, This court held to exhaust state remedies on a federal claim,
a defendant must "fairly present" the claim to the state courts, so that the
prosecution has an opportunity to correct the denial of federal rights. A
defendant who raises an issue only in terms of state law does not fairly
present his federal claims and therefore does not exhaust state remedies.
Duncan v Hanry, 513 U.S. 364 (1995);
The lower courts

the petitioner's claim was defaulted, thestate appell­

ate court held the petitioner's claim was defaulted because he failed to
object to the jury's verdict of guilty of second degree murder. The petiti­
oner properly preserved this claim, when he raised in his post trial motion
for a new trial, he stated in the motion
beyond a reasonable doubt. See Ex.A

he had not been proven guilty

The petitioner's claim is properly

\

preserved notwithstanding the state appellate court's charactarization of
the petitioner's claim. The claim the petitioner basically raised is, the
jury did not prove him guilty beyond a reasonable doudt, which definitely
applies to the petitioner's case, when they found him guilty of second degree
murder

but not of first degree murder first. This falls under the umbrella

of reasonable doubt. The appellate court's holding petitioner forfeited his
claim was based on its own misunderstanding of the case and federal law.
Smith v Texas, 550 U.S. 297 (2007)

8

The petitioner further states the failure to consider this claim would
result in a fundamental miscarriage of justice. This case is simple, the
petitioner was found guilty of second degree murder, but the jury did not
find him guilty of first degree murder first, which is an element of second
degree murder. Therefore, this court should consider this issue for two
reasons (1) This claim is not forfeited when the petitioner preserved his
claim when he raised he was not guilty beyond a reasonable doubt in his
motion for a new trial. See Ex.

There will be a fundamental of miscarriage

of justice if this case isn't addressed by this Honorable Court. Petitioner
has presented significant amount of evidence his claim was not forfeited in
the state or federal courts.
THE PETITIONER'^ CONVICTION OF SECOND DEGREE MURDER MUST BE VACATED
BECAUSE THE JURY FOUND THE PETITIONER NOT GUILTY OF FIRST DEGREE
MURDER. THE LOWER COURTS ERRED IN NOT GRANTING THE PETITIONER A NEW
TRIAL IN THIS CASE.
The Illinois statute established a due process violation, in the peti­
tioner's case. The statute of 720 ILCS 5/9-2(a)(2), requires that the state
first prove beyond a reasonable doubt all elements of the offense of first
degree murder as defined in 720 ILCS 5/9-1; First degree murder charge will
be reduced to second degree murder under 5/9-2, only where had proven the
elements of first degree murder and the defendant has established mitigating
factor by a arepondsence of the evidence.
Here in the instant case, the jury found the petitioner guilty of
second degree murder, but not guilty of first degree murder. See Appendix A.
The Illinois Supreme Court in jeffries, held second degree murder is a
lesser mitigated offense of first degree murder may a defendant seek to
mitigate the charge to second degree murder. People v Jeffries, 646 N.E.2d

9

v

587; The logical corollary is that a defendant need not seek to mitigate
first degree murder, if that offense is not proven because guilt of first
degree murder is an element of the crime of second degree murder. 720 ILCS
5/9-2, Accordingly, the use of the specific of not guilty of first degree
murder a person cannot be found guilty of second degree murder, because
first degree murder is the element of second degree murder and because
second degree murder is a lesser and mitigated offense.of first degree murder.
One of the Illinois Appellate Court Justice, McDade dissented in
affirming the petitioner's conviction, and she stated the following:
:::::

The jurors at the end of their deliberations, presented two signed
verdicts form, one verdict acquitted Brown (the petitioner) of
first degree murder and the second degree murder found him guilty
of. The jury acquitted Brown of the first (degree murder of Coleman;
that acquittal cannot be challenged constitutionally by either the
state or defendant. The statute .clearly requires, as the first nec­
essary element of proof for second degree murder, that the state
prove Brown guilty of first degree murder. The evidence was insuffic­
ient as a matter of law to prove him guiklty of second degree murder.'
I can see no choice but to reverse that conviction. If we do not do
so, we will have violated our sworn duty to enforce the law as writ­
ten and enacted by the legislatures:. It is possible, but not cert^lnn-y-that Brown was wrongly acquitted
of first degree murder. He is nonetheless legally not'guilty. See Ex.
This court has held "the Due Process Clause" requires the state to

prove each element of a charged offense beyond a reasonable doubt before
a defendant may be convicted. Jackson v Virginia, 443 U.S. 307; In Mullaney,
this court considered a case very similiar to the petitioner in this case.
This court held a Maine statute that required a defendant charged with
murder to be prove, by a preponderance of evidence that he acted in the
heat of passion of sudden provocation, in order to reduce the conviction

10

to manslaughter, though Maine statute and law required the .state to prove
that the defendant acted intentionally or with^ricriminal recklessness. The
court concluded it improperly shifted that burden by requiring the defendant
to prove the absence of heat of passion on sudden provocation. Mullaney v
Wilbur, 412 U.S. 684;
The Mullaney court shows the state was required to prove an element if
its part of the charge, which the state failed to do in this case. The second
degree murder statute provides:
(A) A person commits the offense of second degree murder when he or
she commits the offense of first degree murder as defined in paragr­
aph (1) or (2) of subsection (a) of Section 9-1 of this Code and
either of the following mitigating factors are. present:
(B) at the time of the killing he or she believes the circumstances to
be such that, if they existed, would justify or exonerate the killing
under the principles stated in Article 7 of this Code, but his or her
belief is unreasonable.
"(C) The burden of proof, however, remains on the state to prove beyond
a reasonable doubt each of the elements of first degree murder and when
appropriately raised, the absence of circumstances at the time of the
killing that would justify or exonerate the killing under the principle
stated in article 7 of this Code. 720 ILCS 5/9-2 (2012;
In order for a person to be found guilty of second degree murder, he
must be found guilty of first degree murder beyond a reasonable; once the fin
der of fact finds the petitioner guilty beyond a reasonable doubt of first
degree murder, then the burden shifts to the petitioner to prove the existence
of the mitigating.factors by a preponderance of the evidence.
The jury's acquittal of the petitioner of the charge of first degree mur­
der affirmatively establishes that the jury found that the state failed to
prove the elements of first degree murder beyond a reasonable doubt. As the

11

jury was unable to find the petitioner guilty of first degree murder, it could
not then go on to find the petitioner guilty of second degree murder. In deed,
once the jury acquitted the petitioner of fist degree murder, it was precluded
from even considering second degree murder. This is because the jury failed
to find an essential elemant of the second degree murder, mainly, the petiti­
oner committed first degree murder first.
In the jury found that the petitioner had been proven guilty beyond a
reasonable doubt of first degree murder

then it should go on to determine

whether a mitigating factor had been proven. C243, but because the jury found
the petitioner not guilty of first degree murder, the verdict of guilty of
second degree murder is without effect.
This Was a first Impression In The State Of Illinois
The lower courts was wrong to conclude that while the jury erred by
returning inconsistent verdicts, the entry of a conviction inconsistent
with an acquittal is not of a constitutional nature and it did not deny thg
petitioner a substantial right. See Appendix B. Had the lower courts had not
found forfeiture, it would have been required to vacate the defendant's con­
viction of second degree murder, without question, the petitioner cannot be
retried for first degree murder because the jury expressly acquitted him
of that charge. North Carolina v Pearce, 395 U.S. 711, (1969) After a defen­
dant is acquitted of an offense, double jeopardy prohibits a subsequent
prosecution for that offense; U.S. Const. Amends V and XIV; Ill Const. 1970
art. I, § 10. And given that the jury found that the state failed to prove
the elements of second degree murder, first degree murder, remand for a new
trial on the charge of second degree murder is. also prohibited because
double jeopardy bars retail if the conviction is reversed due to the
insufficiency of the evidence. Tibbs v Florida, 457 U.S. 31 (1982)

12

Thus, the petitioner ask that this court grant him leave to file a Writ
before this Honorable--Court to address his federal constitution violation.
The petitioner is innocent and have been acquitted of first degree murder
therefore, he cannot be guilty of second degree murder in this case. The
petoitioner ask this Court to allow "hisrLeave for Writ Of Certiorari.

CONCLUSION
The petitgioner ask and pray this Court grant him Leave to File his
Writ Of Certiorari in this case. Mr. Brown is innocent and this is beca­
use he has been found not guilty of first degree murder, but of second
degree murder, which the petitioner has to be first found guilty of
first degree murder, which he was acquitted of, therefore, he's acqu­
itted of second degree murder.

D±eu set l>H3ro^n

13

i

